U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


       WEST RIVER/LYMAN-JONES
        RURAL WATER SYSTEM,
          MNI WICONI RURAL
       WATER SUPPLY PROJECT,
       BUREAU OF RECLAMATION

             REPORT NO. 99-I-519
                 MAY 1999
                                                                            W-IN-BOR-004-98(D)-R


               United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                         Washington, DC. 20240




                                      AUDIT REPORT
Memorandum

To:        Assistant Secretary for Water and Science

From:      Robert J. Williams qdd&. cc’!
           Assistant Inspector General for ’ udits

Subject: Audit Report on West River/Lyman-Jones Rural Water System, Mni Wiconi Rural
         Water Supply Project, Bureau of Reclamation (No. 99-I-5 19)

                                      INTRODUCTION
This report presents the results of our audit of the West River/Lyman-Jones Rural Water
System,’ which is part of the Mni Wiconi Rural Water Supply Project, located in South
Dakota. The objectives of the audit were to (1) determine whether the costs incurred by
West River/Lyman-Jones Rural Water Systems, Inc., to plan, design, and construct its portion
of the Project were expended in accordance with Federal law, regulations, and tinding
agreements and (2) identify the source of any incurred or projected cost overruns. The audit
was one of four audits of non-Federal sponsors ofthe Mni Wiconi Project, including Systems,
Inc. The results of the audits of the other Project sponsors will be presented in separate
reports. The audit of the Mni Wiconi Project was performed at the request of three members
of the Congress.

BACKGROUND

The Mni Wiconi Project Act of 1988 (Public Law 100-516) authorized and directed the
Secretary of the Interior to construct the Mni Wiconi Rural Water Supply Project to provide
a safe and adequate municipal, rural, and industrial water supply for both Indian and
non-Indian residents of South Dakota. The Act authorized construction of the Oglala Sioux
Rural Water Supply System to serve the Oglala Sioux Tribe on the Pine Ridge Reservation
and the West River and Lyman-Jones Rural Water Systems, which were merged into one
system in 1994, known as the West River/Lyman-Jones Rural Water System, to serve the


‘The System is being constructed by West River/Lyman-Jones Rural Water Systems. Inc.. which is a nonprofit
entity established under the laws of the State of South Dakota.
residents of seven counties in South Dakota.’ The Mni Wiconi Act Amendments of 1994
(Title 8 of Public Law 103-434) added the construction of the Rosebud Sioux and the Lower
Brule Sioux Rural Water Systems to serve the respective reservations, thereby increasing the
number of Project sponsors to four. The Amendments also raised the authorized
appropriation ceiling for the Mni Wiconi Project fi-om $87.5 million to $263.2 million, subject
to indexing,3 and provided that the Project would generally be constructed in accordance with
the Project’s “Final Engineering Report,” dated May 1993.

The Act, as amended, authorized the Secretary to enter into cooperative agreements with the
three tribes, subject to the provisions of the Indian Self-Determination and Education
Assistance Act (Public Law 93-638), as amended, to provide fbnds for planning, designing,
constructing, operating, maintaining, and replacing their respective water systems. Section 4
of the amended Act also authorized the Secretary to enter into cooperative agreements and
provide tinds for planning, designing, and constructing the West River/Lyman-Jones Rural
Water System and provided that Systems, Inc., is responsible for a 20 percent share of these
costs. In addition, Systems, Inc., is solely responsible for the costs of operating, maintaining,
and replacing the System. The Bureau of Reclamation serves as the oversight agency for the
Project, with the authority and responsibility to enter into cooperative agreements and to
provide the technical and administrative oversight necessary to complete the planning, design,
and construction of the Project.

The overall Project includes a water treatment plant, 4,500 miles of pipeline, 60 booster pump
stations, and 35 water storage reservoirs. The Project will ultimately serve more than
50,000 people, including more than 40,000 Indians on the three reservations.

In its May 1998 “Master Plan,‘14 the Bureau estimated that the total cost to complete the
Project would be $387 million, or $60 million more than the indexed Project cost of
$327 million. The projected overrun was attributable to the Oglala Sioux and the Lower
Brule Sioux Rural Water Systems. In the “Master Plan,” the Bureau also estimated that at
current tinding levels,5 the $327 million would not be fully appropriated until 2006.
However, the authorization to appropriate IGnds for the Project expires in 2003. According
to Bureau data, as of September 30, 1998, the Bureau had allocated Federal fimds of

2The seven counties are Haakon, Jackson. Jones. Lyman. kleilette, Pennington. and Stanley

‘Indexing is the process of updating the Congressionally authorized appropriation ceiling of a project for
changes generally attributable to economic factors. usually inflation.

?he “Master Plan” established the construction schedule for each segment of the Project and documented
historical and projected costs to enable the Bureau and Project sponsors to track the status of the Project. The
Plan also enabled the Bureau and Project sponsors to estimate the effect of changes in annual appropriations
and prices on the construction schedule. The Plan projected a Project construction ceiling of $327 million.
indexed through October 1999. as presented in Bureau budget documents for fiscal year 2000. The Plan also
included a breakdown of this ceiling for individual Project sponsors. The total estimated Project costs of
$387 million were based on information provided by Project sponsors. The Bureau plans to periodically
update the Plan.

‘In fiscal years 1996 through 1998. Federal funding levels for the Project averaged about $25 million.

                                                       2
$107.5 million to Project sponsors, including $4.3 million for Bureau administrative and
oversight charges.

The West River/Lyman-Jones Rural Water System as authorized includes more than
2,700 miles of pipeline. The cost of the System, originally estimated at $64.5 million, was
indexed in the “Master Plan” to $8 1.9 million (October 1999 dollars), which consisted of a
Federal share of $66.1 million and Systems, Inc.‘s contributions of $15.8 million. As of
September 30, 1998, about $17 million (26 percent of the $66.1 million Federal share) had
been allocated, about $12 million of which had been expended, with an additional $8 million
expended as Systems. Inc’s contribution, for total expenditures of $20 million.

SCOPE OF AUDIT
Our fieldwork included a review of Systems, Inc.‘s expenditures from November 12, 1993,
through September 30, 1998, and was performed at the offices of Systems, Inc., in Murdo,
South Dakota, and Systems, Inc.‘s accounting firm in Rapid City, South Dakota. To meet
our audit objectives, we reviewed the Mni Wiconi Act, as amended; three cooperative
agreements and the water service agreement between the Bureau and Systems, Inc.;
construction contracts; the contract between the National Park Service and Systems, Inc.;
minutes of Board of Directors meetings; and engineering and single audit reports. In
addition, we interviewed officials from the Bureau’s field office in Pierre, South Dakota;
Systems, Inc.; Systems, Inc.‘s accounting firm and engineering consulting firm; the National
Park Service’s Office of Operations Engineering in Denver, Colorado; and Badlands National
Park in South Dakota.

Our analysis of the financial status of the System was based on a review of expenditures, cost
estimates, and other financial and planning data available as of September 30, 1998. As such,
our conclusions regarding any actual or projected cost overrun may be affected by subsequent
events concerning the cost and design ofthe System. These events include modifications to,
additions to, and deletions of construction components; revisions of cost estimates based on
current data; increases in authorized Project costs attributable to cost indexing; and efforts
by the Bureau and Systems, Inc., to implement cost-saving measures. In that regard, the
Bureau issued a draft Cost Containment Report in December 1998, which includes various
options for reducing Project costs.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances to accomplish our audit objectives. As part of our audit, we reviewed the
Secretary’s Annual Statement and Report to the President and the Congress, required by the
Federal Managers’ Financial Integrity Act, for fiscal years 1994 and 1995; the Departmental
Reports on Accountability for fiscal years 1996 and 1997, which include information required
by the Act; and the Bureau’s annual assurance statements on management controls for fiscal
years 1997 and 1998. Based on these reviews, we determined that no material weaknesses
were reported which directly related to the objectives and scope of our audit.


                                              3
We also reviewed the single audit reports for Systems, Inc’s fiscal years 1994 through 1997
and the certified public accountant’s working papers for fiscal year 1997. The 1997 single
audit report identified a material internal control weakness relating to “a lack of segregation
of duties resulting from the size of the staffI and recommended that Systems, Inc., continue
its review of the monthly financial statements and “attain as much segregation of duties as
feasible.” The manager of Systems, Inc., stated that expenses are approved by the Board of
Directors, a!! checks require two signatures, and monthly financial statements are reviewed
by him and by the Board. We concluded that this explanation was reasonable, considering
the small size of Systems, Inc.‘s staff.

PRIOR AUDIT COVERAGE
During the past 5 years, neither the OfIice of Inspector Genera! nor the Genera! Accounting
Office has issued any reports on the Mni Wiconi Rural Water Supply Project. However, an
Ofice of Inspector Genera! audit report issued in May 1995 addressed grants for rural water
projects administered by the Bureau of Reclamation’s Great Plains Region. The audit
included an evaluation of transactions executed under the cooperative agreements between
the Bureau and Systems, Inc. The report “Grants for Rural Water Projects, Great Plains
Region, Bureau of Reclamation” (No. 95-I-947) stated that the Bureau needed to improve
its processes for monitoring project costs to preclude funding activities that are ineligible for
Federal reimbursement. The report did not contain any recommendations but suggested that
the Bureau review the costs charged to rural water projects, including Systems, Inc., to
ensure that only costs allowable under the regulations were charged to the Mni Wiconi
Project.

In August 1996, the Bureau completed an on-site review ofthe three cooperative agreements
between the Bureau and Systems, Inc., which included a review of the propriety of
non-Federal costs and overhead allocations. The Bureau reported that the non-Federal costs
and the overhead allocations were properly accounted for. However, during our audit, we
found that Systems, Inc’s genera! and administrative expenses,’ which should have been
allocated between System construction and operations and maintenance, were assigned solely
to System construction. thus resulting in System construction costs being overstated. This
condition is addressed in the Results of Audit section of this report, and our
recommendations, if implemented, should correct this condition.




“The office staff consists of the manager. a bookkeeper/secretary. and a billing clerk

‘According to Part 3 1, Section 001. of the Federal Acquisition Regulation. a general and administrative
expense is any management. financial. and other expense that is incurred by or allocated to a business unit
for the general management and administration of the business unit as a whole.

                                                      4
                               RESULTS OF AUDIT
We found that costs incurred by West River/Lyman-Jones Rural Water Systems, Inc., for
planning, designing, and constructing the West River/Lyman-Jones Rural Water System were
generally expended in accordance with the Mni Wiconi Act of 1988, as amended; Federal
regulations; and the terms of the cooperative agreements between the Bureau of Reclamation
and Systems, Inc. We also found that no cost overrun was projected for the System.
However, we found that Systems, Inc.‘s charges to the cooperative agreements included
(1) general and administrative expenses which should have been assigned to operations and
maintenance or were overstated and (2) construction costs which were reimbursed by the
National Park Service. The Mni Wiconi Act, as amended, and the cooperative agreements
require that Systems, Inc., pay a 20 percent share ofthe cost of its System and that operations
and maintenance costs not be reimbursed or used to meet the 20 percent cost-sharing
requirement. In addition, the agreements incorporate, by reference, Office of Management
and Budget Circular A-l 10, “Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations,” which states that fbnds received by an entity under another Federal grant or
other agreement cannot be used to meet that entity’s non-Federal cost-sharing requirement,
and Office of Management and Budget Circular A-122, “Cost Principles for Nonprofit
Organizations,” which states that for a cost to be allowable it “must . not be included as
a cost of any other federally financed program in either the current or a prior period.”
The manager and the consulting engineer of Systems, Inc., stated that (1) all general and
administrative expenses were assigned to System construction because they both believed that
the administrative expenses allocable to operations and maintenance were minimal and
(2) fi_mds reimbursed by the Park Service were considered to be “late sign-up fees.” As a
result, we classified costs totaling $938,899 as cost exceptions (see Appendix 1).
Specifically, we estimated that recorded System expenditures were overstated by $3 19,956
for 1996 and 1997 (see Appendix 2) for general and administrative expenses that should have
been allocated to operations and maintenance, by $63,000 for general and administrative
expenses that were reimbursed by a related entity (West River Water Development District),
and by $555,943 for costs that were reimbursed by the Park Service.

General Compliance

We found that Systems, Inc., generally complied with the Act, as amended, and the terms of
the cooperative agreements. Specifically, as of September 30, 1998, Systems, Inc., had
contributed $8 million for its share ofthe System’s costs, which represented 40 percent ofthe
$20 million expended as of that date. As such, Systems, Inc., was on schedule to meet its
overall 20 percent cost-sharing requirement. In addition, Systems, Inc., had established a
group ofaccounts to segregate operations and maintenance costs (which are not fUnded under
the cooperative agreements) from construction costs and generally had not included
operations and maintenance costs in requests for fimds except as discussed in the section
“General and Administrative Expense Allocation.” Further, the Bureau, based on information
provided by Systems, Inc., projected that the System’s total costs would be $78.9 million. or
$3 million less than the indexed costs of $8 1.9 million. Based on our analysis of expenditures


                                               5
for completed construction, contracts for construction in progress, and projected changes,
we estimated that if the System is completed as currently designed and within the revised cost
estimates as determined by our audit, the System’s costs would be approximately
$72.3 million, or about $9.6 million less than its indexed costs of $81.9 million and
$6.6 million less than the $78.9 million cost projected by the Bureau (see Appendix 3).

General and Administrative Expenses

Although Systems, Inc., generally did not include direct maintenance costs in its charges to
the System, it inappropriately charged the System for all general and administrative expenses,
some of which should have been assigned to operations and maintenance. Cooperative
Agreement No. O-FC-60-01550, dated May 18, 1990, and Cooperative Agreement
No. 4-FC-60-04090, dated March 11, 1994, state that Systems, Inc., “may incur such
reasonable administrative costs that are allocable to work pursuant to. [the] agreement[s].”
However, Systems, Inc., assigned ail of its general and administrative expenses ($3 14,578
in 1996 and $374,289 in 1997) to the System and none to the operations and maintenance
function, even though construction had been completed for several segments of the System.
Both the manager of Systems, Inc., and the consulting engineer stated that they thought that
the costs allocable to operations and maintenance would be minimal and that only the salary
of the employee who billed the water users should be assigned to operations and maintenance.
They also stated that as more construction was completed, the costs assignable to operations
and maintenance would increase. Based on our review, we believe that additional costs are
allocable to operations and maintenance. For example, all salary and expenses for the
manager of Systems, Inc., and per diem and other expenses for the Board of Directors are
charged to general and administrative expenses, which are charged to the System, even
though the manager’s and the Board of Directors’ responsibilities are not all construction
related. Systems, Inc.‘s General Policy states:

        The Manager’s primary functions are to provide adequacy of the physical
        system in relation to the needs of existing and potential consumers, the
        budgeting of all resources, developing and maintaining an operating program
        designed to keep the Corporation service to its members at maximum
        efficiency through the maintenance of lines and services and adequate power
        supply.

Systems, Inc., had not developed a method for allocating general and administrative expenses.
Accordingly, we used two different bases for estimating general and administrative expenses
applicable to operations and maintenance for fiscal years 1996 and 1997 (see Appendix 2).
Using salaries as a basis for allocation, we estimated that general and administrative expenses
of $3 19,956 would have been allocated to operations and maintenance for this period. Using
total construction costs and total operations and maintenance costs as a basis for allocation.
we estimated that general and administrative expenses of$328,068 would have been allocated
to operations and maintenance for this period. Accordingly, we classified general and




                                               6
administrative expenses of $3 I9,956* as cost exceptions. An allocation was not made for
1998 because the 1998 costs were not available at the completion of our fieldwork. In
addition, an allocation was not made for years prior to 1996 because Systems, Inc., had not
established separate accounts for construction and operations and maintenance.

Further, general and administrative expenses were overstated by $63,000 for the period 1994
through 1997 for expenses erroneously charged to the System. Systems, Inc., provided
services to and was reimbursed by the West River Water Development District, but Systems,
Inc., did not reduce the charges to the System.

We believe that the Bureau should work with Systems, Inc., to develop an equitable basis for
allocating general and administrative expenses and should monitor the costs reimbursed under
the agreements to ensure that general and administrative expenses are properly allocated
between construction and operations and maintenance.

National Park Service Reimbursement

In December 1993, the National Park Service contracted with Systems, Inc., to design and
construct a water line to the nearby Badlands National Park in South Dakota. The contract
as modified contained 10 modifications, including 7 modifications that involved tinding
increases totaling $555,943 as of September 18, 1996. The other three modifications did
not provide additional fUnding but cumulatively extended the contract term to September 30,
1999, while the National Park Service awaited funding to complete the work. Systems, Inc.,
included costs of the work completed for the Park Service as part of the construction of the
Creighton and Kadoka segments of the System. The Creighton segment included about
4.5 miles of additional pipeline to extend the water line to Badlands National Park, while the
Kadoka segment increased the size of the lines to accommodate service to the Park. Systems,
Inc., received payments totaling $555,943 from the Park Service between December 1993 and
April 1997 for the work performed.

The cooperative agreements require that all payments made by the Bureau to Systems, Inc.,
be in accordance with Office of Management and Budget Circulars A-l 10 and A-122.
Subpart C,23(a)(5) of Circular A-l 10 states that an entity receiving tinds under another
Federal grant or other agreement cannot use these funds to meet non-Federal cost-sharing
requirements. In a May 19, 1994, letter to the Bureau, Systems, Inc., requested approval to
use the funds paid by the Park Service to help meet the non-Federal cost-sharing
requirements. In its July 11, 1994, response, the Bureau stated that these fUnds could not be
used for cost sharing because the construction would be fUnded by the Park Service and not
under the cooperative agreement. Circular A-122 states that for a cost to be allowable, it
“must not be included as a cost . of any other federally financed program in either the
current or a prior period.” However, the cost of work completed for the Park Service was
recorded in the System’s costs. As a result, the System’s costs were overstated by $555,943,
and we classified this amount as a cost exception.


‘The amount classified as a cost exception represents the lolver of the t!vo estimates.

                                                       7
We discussed the inclusion ofthese costs with the engineering consultant, who stated that the
Park Service’s costs were recorded as the System’s costs because, although not funded under
the cooperative agreement, these costs were part of the costs of Systems, Inc.‘s rural lvater
systems. However, the engineering consultant agreed that these costs should not have been
included as costs to be reimbursed by the Bureau. Bureau personnel said that the information
provided by Systems, Inc., was not sufficient for the Bureau to determine whether the Park
Service’s costs were included in the requests for funds made by Systems, Inc. We also
discussed the inclusion of the Park Service’s costs with the manager of Systems, Inc., who
stated that he considered the revenues from the Park Service to be “late sign-up fees.‘lg The
engineering consultant said that he and the manager agreed that the System’s costs would be
reduced by the amount received from the Park Service.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

        1, Instruct officials of West River/Lyman-Jones Rural Water Systems, Inc., to
determine an equitable method for allocating past and future general and administrative
expenses between System construction and operations and maintenance.

        2. Instruct officials of West River/Lyman-Jones Rural Water Systems, Inc., to
reallocate to operations and maintenance an equitable share of general and administrative
expenses and adjust their accounting records accordingly.

        3. Instruct officials of West Rivet-Lyman-Jones Rural Water Systems, Inc.. to
reduce recorded System expenditures for the amount of the reimbursement received from the
West River Water Development District and from the National Park Service.

        4. Monitor costs reported by West River/Lyman-Jones Rural Water Systems, Inc.,
to ensure that corrective actions are taken so that future System construction costs claimed
are eligible for Federal funding under Federal law, regulations, and cooperative agreements.

Bureau of Reclamation Response and Office of Inspector General Reply

In the May 25, 1999, response (Appendix 4) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with the four recommendations, Based on the
response, we consider the recommendations resolved but not implemented. Accordingly. the
unimplemented recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation.




‘Sytems. Inc.-s policy was to charge a fee. which it termed a “late sign-up fee.” to customers who contracted
for water service after the System had been designed. The fee included the cost of the additional construction
required to accommodate the customer.

                                                      8
Since the repot-t’s recommendations are considered resolved, no fi_n-ther response to the Ofice
of Inspector General is required (see Appendix 5).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau and Systems, Inc., personnel in the conduct of our
audit.




                                              9
                                                                                           APPENDIX 1


                CLASSIFICATION OF MONETARY AMOUNTS


                                                                      Questioned Costs
                                  Finding                             (Cost Exceptions)
                General and Administrative Expense
                  Allocation*                                              $3 19,956
                  District Reimbursement                                      63,000
                National Park Service                                        555,943
                    Total                                                  $938,899




‘We used two different bases for estimating general and administrative expenses applicable to operations and
maintenance for fiscal years 1996 and lYY7 (see Appendix 2). The questioned costs represent the lower of
the two estimates. However. as recommended in the report. Systems. Inc.. needs to determine an equitable
method for allocating general and administrative expenses and adjust its records accordingly.


                                                    10
                                                                                              APPENDIX 2


   GENERAL AND ADMINISTRATIVE EXPENSE ALLOCATION
      BASED ON CONSTRUCTION AND OPERdTIONS AND
   MAINTENANCE SALARIES AND ON TOTAL CONSTRUCTION
        AND OPERATIONS AND MAINTENANCE COSTS

                                    Allocation Based on Salaries’

                General and
               Administrative               Construction                   Operations and Maintenance
  Fiscal       Expenses To            Percent To      Amount                Percent To       Amount
  Year         Be Allocated’         Be Allocated     Allocated            Be Allocated     Allocated
1996               $296,578              59.14        $175,396                 40.86        $121,182
1997                 356,289            44.21          157,515                 55.79          198,774
Two-year
Total                 $652,867                             $332,911                                $3 19,956



                      Allocation Based on Total Construction Costs and
                             Operations and Maintenance Costs3

                General and
               Administrative              Construction                    Operations and Maintenance
  Fiscal       Expenses To            Percent To      Amount                Percent To       Amount
  Year         Be Allocated’         Be Allocated    Allocated             Be Allocated     Allocated
1996               $296,578             63.24        $187,556                  36.76        $109,022
1997                 356,289            38.52          137,243                61.48          2 19,046
Two-year
Total                 $652,867                             $324.799                                $328.068




‘Percentages used For cost allocations based on salaries were obtained by adding construction salaries and
operations and maintenance salaries obtained from Systems. Inc’s general ledgers for fiscal years 1996 and
I YY 7 and dividing each category by the total.

‘General and administrative expenses to be allocated were based on the total general and administrative
expenses remaining for each !-ear after excluding expenses of $18.000 for which Systems. Inc.. was
reimbursed by the West River Water Development District.

3Percentages used for allocations based on total costs were obtained by adding total construction costs. except
for contract costs. and total operations and maintenance costs obtained from S>-stems. Inc.‘s general ledgers
for fiscal years 1996 and 1997 and divitiing each category by the total.

                                                      11
                                                                                                                          APPENDIX 3
                                                                                                                           Page 1 of 2




                   WEST RIVER/LYMAN-JONES RI RAL WATER SYSTEM
                            ESTIMATED COST PER AUDIT
                        BASED ON iUAY 1998 “MASTER PLAN”*

                              Estimated
                             System Cost                                           Revised
                              Per Master        Additions       Deletions         Estimates
Description                      Plan           Per Audit       Per Audit         Per Audit        Comments
Creighton Service             $2,936,876                         $243,948         $2.692.928       Creighton Area construction costs
  Area                                                                                             included $243,948 that was
                                                                                                   reimbursed by the Park Service.
Elbon Service                   3,719,312           $2.809                         3,722,121       Completed construction costs were
  Area                                                                                             more than estimated.
Kadoka and                      3,511,731                          203: 174        3,308,557       Kadoka Area construction costs
 Grindstone North                                                                                  included $203.174 that was
                                                                                                   reimbursed by the Park Service.
Grindstone South                 1,884,210          18,721                         1,902,93 1      Completed construction costs were
  Service Area                                                                                     more than estimated.
Reliance North                   1,325,OOO                            5,554        I.,3 19,446     Completed construction costs were
 and South                                                                                         less than estimated.
Ft. Pierre-Vivian/               1,451,OOO        364.353                          1,815,353      Vivian and Vivian North were
  Vivian North                                                                                    combined into one contract for
                                                                                                  $1,815,353.
Administration                     839,000         42,500                             88 1,500     Still under construction.
 and Maintenance
 Building
Mellette County                 4,582,OOO                        2,613,950         (968,050       Some Mellette Count\, West
 West                                                                                             customers declined service. In
                                                                                                  addition, Parmalee North and
                                                                                                  South and Cedar Butte were
                                                                                                  combined and bid as one contract.
Mellette Counh                  5.835,337                                          5,835:337      Scheduled for construction in
 East                                                                                             fiscal years 1998-2000.




‘The Bureau of Reclamation estimated construction and noncontract costs ot’$78.9 million. mdicating that the System could be constructed
for 53 million less than indrsed System costs of $8 1.9 million. Based on our audit of completed construction and updated costing information
ohtamed from Systems, Inc.‘s manager and the consulting engineer, we estimated System costs to be about $72.3 million, or 39.6 million
less than thr indesed cost. The reduction results in a revysed Federal share of $57.8 million. Because the “Master Plan” n-as prepared by
the Bureau. the fiscal year schedule for construction ends September 30.

                                                                     12
                                                                                               APPENDIX 3
                                                                                                Page 2 of 2


                      Estimated
                     System Cost                               Revised
                      Per Master Additions      Deletions     Estimates
Description              Plan    Per Audit      Per Audit     Per Audit     Comments
Kennebec North         2.022,696                               2:022,696    Scheduled for construction in
                                                                            fiscal year 2000.
Draper Area            4,409,237                                4,409>237   Scheduled for construction in
                                                                            fiscal years 2000-200 1.
Okaton Area            2,698,490                                2,698,490   Scheduled for construction in
                                                                            fiscal years 200 l-2002.
Presho Area            6,361:741                                6,361,741   Scheduled for construction in
                                                                            fiscal years 2002-2003.
Four Comers            4323,070                                 4,523,070   Scheduled for construction in
  Area                                                                      fiscal years 2003-2004.
Midland Area           3:344,026                                3,344,026   Scheduled for construction in
                                                                            fiscal years 2004-2005.
Midland/Philip         2,848,007                               2,848,007    Scheduled for construction in
 Area                                                                       fiscal year 2005.
Philip/Wall Main       3,427,015                               3,427:015    Scheduled for construction in
                                                                            fiscal year 2006.
City Connections       5,500,OOO                2,500,OOO      3,000~000    Current estimates for city
                                                                            connections are less than
                                                                            originally estimated.
  Subtotal/System    $61,218,748   $ 4 2 8 , 3 8 3 $5,566,626 $56,080,505
    Construction
Non-contract Costs   $17.712:364 $123,931 $1,610,425 $16,225,870 Adjustments are based on
                                                                     applying the rate used by Systems,
                                                                     Inc., in the “Master Plan.” The
                                                                     rate used is 28.93 percent.
   Total Costs       $78.93 1,112 $552.3 14 $7.177.05 1 $72.306.375

Federal Share        $64.110,561                             $57.845,100    The $57.8 million ws calculated
                                                                            based on 80 percent of the revised
                                                                            estimates.
Systems. Inc’s       $14820,550                              $14,46 1,275   The $14.5 million was calculated
  Share                                                                     based on 20 percent of the revised
                                                                            estimates.




                                                    13
                                                                                              APPE&IX 4
                         United States Department of the Interior                             Page 1 of 3

                                         BUREAU OF RECIAMATION
                                              Washington, D.C. 20240

IN REPLY REFF_R To:

   D-5010


                                              MEMORANDUM
   To:                Office of Inspector General
                       Attention: Assistant Insnector General for Audits




   Subject:           Draft Audit Report on “West River/Lyman-Jones Rural Water System,
                      Mni Wiconi Rural Water Supply Project, Bureau of Reclamation,”
                      Assignment No. W-IN-BOR-004-99(D)-R

  The Bureau of Reclamation offers the following comments in response to the recommendations
  in the subject report.

  We recommend that the Commissioner, Bureau of Reclamation:

  Recommendation 1

  Instruct officials of West River/Lyman-Jones Rural Water Systems, Inc., to determine an
  equitable method for allocating past and future general and administrative expenses between
  System construction and operations and maintenance.

              Resoonse

              Concur. Reclamation will instruct West River/Lyman-Jones to determine an acceptable
              method of allocating general and administrative expenses between construction and
              operation and maintenance.

              The responsible official is the Area Manager, Dakotas Area Office. The target date to
              provide a letter to the project sponsor is June 30, 1999.

  Recommendation 2

  Instruct officials of West River/Lyman-Jones Rural Water Systems, Inc., to reallocate to
  operations and maintenance an equitable share of general and administrative expenses and adjust
  their accounting records accordingly.


                                                     14
                                                                                        APPENDIX 4
                                                                                         Page 2 of 3
                                                                                                  2

        Resnonse

        Concur. Reclamation will instruct West River/Lyman-Jones to reallocate to operation
        and maintenance an equitable share of general and administrative expenses and to adjust
        the accounting records accordingly.

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       provide a letter to the project sponsor is June 30, 1999.

Recommendation 3

Instruct officials of West River/Lyman-Jones Rural Water Systems, Inc., to reduce recorded
System expenditures for the amount of the reimbursement received from the West River Water
Development District and from the National Park Service.

       Resnonse

       Concur. Reclamation agrees that the amounts received from West River Water
       Development District and the National Park Service should be removed &om the
       recorded System expenditures and will instruct the project sponsor to reduce the
       appropriate recorded expenditures.

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       provide a letter to the project sponsor is June 30, 1999.

Recommendation 4

Monitor costs reported by West River/Lyman-Jones Rural Water Systems, Inc., to ensure that
corrective actions are taken so that future System construction costs claimed are eligible for
Federal funding under Federal law, regulations, and cooperative agreements,

       Response

       Concur. Reclamation will require more detailed information be submitted in support of
       fund requests to enable Reclamation to more closely monitor costs to ensure the project
       sponsor is eligible for Federal funding.

       The responsible official is the Area Manager, Dakotas Area Office. More detailed
       schedules will be required by the Dakotas Area Office commencing with the fund request
       for the first quarter of fiscal year 2000. The target date for implementing the corrective
       action for this recommendation is September 30, 1999.



                                              15
                                                                                   APPENDIX 4
                                                                                    Page 3 of 3
                                                                                           3

We appreciate the opportunity to comment on the audit recommendations. If you have any
questions or require additional information, please contact Luis Maez at (303) 445-2793.




cc. Assistant Secretary - Water and Science, Attention: Laura Brown




                                             16
                                                                  APPENDIX 5



        STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommetidation
        Reference              Status                  Action Required
       1, 2, 3, and 4     Resolved; not    No fkther response to the Offke of
                          implemented.     Inspector General is required. The
                                           recommendations will be referred to
                                           the Assistant Secretary for Policy,
                                           Management and Budget for tracking
                                           of implementation




                                      17
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                               Internet/E-Mail Address

                                        wvw.oig.doi.gov


                       Within the Continental United States

U.S. Department of the Interior                           Our 24-hour
Office of Inspector General                               Telephone HOTLINE
1849 C Street, N.W.                                       l-800-424-508 1 or
Mail Stop 5341                                            (202) ,208-5300
Washington, D.C. 20240
                                                          TDD for hearing impaired
                                                          (202) 208-2420 or
                                                          l-800-354-0996


                       Outside the Continental United States

                                      Caribbean Region

U .   S . Department
                   of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
suite 303
Arlington, Virginia 22203

                                     Notch Pacific Region

U. S . Department of the Interior                      (671) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081           w
 TDD l-800-354-0996       5
                          5
                          5
FTS/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420       Ez
                           -



1849 C Street, N.W.
